                                                             NATIONAL SCIENCE FOLTNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                          CLOSEO'CTT MEMORANDUM


I   Case Number: A-03020010                                                                   Page 1 of 1
                                                                                                                 I
         We received allegations the subject1used ideas developed by his graduate student (the student)
         inappropriately in an NSF funded proposal,2in the NSF Final Report for the funded proposal,
         and in a presentation at a major research in~titution.~ We reviewed numerous documents
         provided to our office in support of the allegations. We also received a copy of the subject's
         University's final inquiry report into similar allegations, which concluded that no grounds
         existed to warrant a formal investigation.

         Our inquiry determined that the graduate student worked together with the subject in writing the
         NSF funded proposal. The subject included the student's curriculum vitae in the proposal, listing
         him as a participant and budgeting him for support, which he received. We learned fiom the
         student that he and the subject had worked together for more than a year prior to the preparation
         and submission of the NSF proposal, work that resulted in co-authored publication^.^ Some of
         the ideas present in the publications were, according to the student, incorporated into the NSF
         proposal. We concluded that there was no substance to the allegation that the subject
         inappropriately used any of the student's ideas in the funded proposal.

         Our inquiry concluded that, because the student was listed as a co-author on the NSF Final
         Report for the funded proposal, there was no substance to the allegation that any of the student's
         ideas had been used inappropriately in this report.

         Finally, the student provided us with copies of the subject's slides used for the presentation at the
         research institution. We noted that the subject cited the student by name on one slide and cited
         their co-authored publications on three other slides. We concluded that there was no substance to
         the allegation that the subject had used the student's ideas inappropriately in the presentation.

         This case is closed and no further action will be taken.



                                                 , is a faculty member in

                                           , entitled "
           ,              " submitted by the subiect as the sole PI.




VSF OIG Form 2 (1 1/02)
